                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I03110048/Closeout                                                          Page 1"of 1




         The National Science Foundation (NSF) Office of Inspector General (OIG) selected this award as
         part of a review of conferences, workshops and symposia with respect to compliance with
         program income requirement. Some of the conference attendees were NSF Program Officers.
         This gave the appearance of a conflict of interest (COT).


         NSFIOIG requested that the University provide financial information and supporting
         documentation for the award. The University provided all requested information, which revealed
         that award funds were not used to pay for the NSF attendees. A review of the travel vouchers
         from the NSF Program Officers confirmed that NSF paid for all NSF attendees conference costs.
          Therefore, there does not appear to be any COI issues.

         Accordingly, this case is closed.




                                                                                               I1
VSF OIG Form 2 (1 1/02)
